                     U.S. DEPARTMENT OF THE INTERIOR
                        OFFICE OF INSPECTOR GENERAL




     PROGRAM ASSESSMENT RATING TOOL
                    PART REVIEW
             PROGRESS
               BUREAU OF IE VALUATION
                          NDIAN AFFAIRS
        OF THE BUREAU
             ROAD        OF INDIAN
                  MAINTENANCE         AFFAIRS
                                PROGRAM
             IRRIGATION PROGRAM




Y-RR-BIA-0003-2007        ii           November 2007
                    PART — PROGRESS EVALUATION
         OF THE BUREAU OF INDIAN AFFAIRS IRRIGATION PROGRAM

                                                 TABLE OF CONTENTS
Acronyms Used.............................................................................................................................. ii

Introduction

          Why We Did This Progress Evaluation ...........................................................................1
          Objectives............................................................................................................................1
          Scope and Methodology.....................................................................................................1
          How We Structured This Report......................................................................................1
          Bureau of Indian Affairs Irrigation Program Overview................................................2

Observations and Suggestions ......................................................................................................3

          Facilities Information ........................................................................................................3
          Performance Measures......................................................................................................9
          Assessment Rates and Budgets .......................................................................................11
          Billing and Collection ......................................................................................................15
          Field Operations Support................................................................................................18

Appendix A, History and Use of the PART............................................................................ A-1

Appendix B, Sites Visited or Contacted......................................................................................B

Appendix C, Index of OMB Program Improvement Plan Actions by
     Report Section ...................................................................................................................C

Appendix D, Table of Suggestions........................................................................................... D-1

Appendix E, PART Questions that Elicited a NO Answer ....................................................E-1




                                 ON THE COVER
Working to Improve Conditions and Technology at the Uintah Indian Irrigation Program.
Irrigation Structure from left to right: 1) missing gate, 2) manual gate, and 3) solar-powered radio-controlled gate. A
U.S. Bureau of Reclamation grant partially funded this recent update.                                  OIG Staff Photo




                                                                       i
                              ACRONYMS USED
ACA     Annual Condition Assessment

 BIA    Bureau of Indian Affairs

BOR     U.S. Bureau of Reclamation

CCA     Comprehensive Condition Assessment

DASM    Office of the Deputy Assistant Secretary for Management

DOI     Department of the Interior

 FPP    Financial Program Planning System

 FY     Fiscal Year

GAO     Government Accountability Office

 GIS    Geographic Information System

 IID    Imperial Irrigation District

IPSOD   Division of Irrigation, Power, and Safety of Dams

NIIMS   National Irrigation Information Management System

OIG     Office of Inspector General

OMB     Office of Management and Budget

O&M     Operation and Maintenance

PART    Program Assessment Rating Tool




                                       ii
                                      INTRODUCTION

WHY WE DID THIS PROGRESS EVALUATION
The Deputy Secretary of the Department of the Interior
(DOI) asked the Office of Inspector General (OIG) to              WHAT IS THE PART?
evaluate the progress made in programs designated Results
                                                                  Federal agencies use the
Not Demonstrated by the Office of Management and
                                                                  PART, a standard
Budget (OMB). OMB uses the Program Assessment Rating
                                                                  questionnaire, to submit
Tool (PART) to make these designations.
                                                                  information on federal
                                                                  programs to OMB.
We selected the Bureau of Indian Affairs (BIA) Irrigation
Program (referred to as the Program). The BIA Division of         OMB uses the information
Irrigation, Power, and Safety of Dams (IPSOD) administers         to determine program
the Program, together with staff and partners at BIA regional     effectiveness, to recommend
offices and field agencies. OMB reviewed the Program in           improvements for rated
2005.                                                             programs, and to follow up
                                                                  on those improvements.
OBJECTIVES
                                                                  The ExpectMore.gov Web
Based on its review, OMB made recommendations that relate         site publishes PART results.
to audit follow-up, management of facilities information, and
performance measurement. Our objectives were to determine         See Appendix A for more
what progress BIA and IPSOD have made toward                      information on the history
implementing the OMB recommendations and to provide               and use of the PART.
observations and suggestions that DOI and Program
managers can use in preparing for upcoming PART reviews.

SCOPE AND METHODOLOGY
To meet the objectives, we interviewed Bureau and Department officials; reviewed and analyzed
Program documentation; and completed a limited review of related literature in the fields of
agricultural irrigation and facilities management. We also visited several Indian irrigation sites,
as noted at Appendix B. We conducted this progress evaluation in accordance with the “Quality
Standards for Inspections” established by the President’s Council on Integrity and Efficiency.
We based our suggestions on OMB 2007 PART guidance.

HOW WE STRUCTURED THIS REPORT
Following a brief Program overview, we present a number of suggestions related to
1) facilities information; 2) performance measures; 3) assessment rates and budgets;
4) billing and collection; and 5) field operations support. Appendix C shows how these topics
and suggestions relate to the OMB PART recommendations.
BIA IRRIGATION PROGRAM OVERVIEW
For more than a century, DOI has helped irrigate Indian
                                                                  The BIA irrigation projects
lands in support of agricultural and economic development.
                                                                  are vital components of the
Today, BIA is responsible for operating, maintaining, and
                                                                  local agricultural economy
rehabilitating 15 irrigation projects in four regions, with
                                                                  of the reservations on which
oversight from IPSOD as the central program office.
                                                                  they are located.
Program staff also provide technical assistance to Indian
tribes that own and operate scores of irrigation systems.            — from BIA Notice of Proposed
                                                                             Rulemaking preamble,
                                                                                      71FR40450,
Collectively, BIA-managed projects deliver water to around
                                                                                         July 2006
710,000 acres by maintaining and operating tens of
thousands of structures and more than 5,000 miles of canals.
The projects vary widely in terms of duration of the irrigation season and crops supported.

As can be seen in Table 1, BIA projects generate about $25 million in revenues each year that
are classified as miscellaneous permanent appropriations in the following year. Direct
appropriations include about $11 million (Trust — Natural Resources Management), most of
which is directed to specific projects by court decree or by various legislative stipulations. From
time to time, the Congress also appropriates funding for the rehabilitation of irrigation projects
(Resource Management Construction). In FY2006, such funding was available and earmarked
for the five projects in the BIA Rocky Mountain Region, which encompasses Montana and
Wyoming. By virtue of the omnibus continuing resolution, rehabilitation funding was again
available in FY2007. Thus, annual funding for the Program runs about $40 million.



                       Table 1. Approximate Funding Level ($ millions)

           Budget Activity                                                                  FY2008
                                               FY2005         FY2006        FY2007
 and Sub-Activity or Program Element                                                        Request
Miscellaneous Permanent Appropriations               22.6          27.4           25.7            25.7
O&M Indian Irrigation Systems
Trust — Natural Resources Management                  9.1          13.0           12.5            11.1
Irrigation O&M
Resource Management Construction                      0.0           6.4             7.0           0.0*
Indian Irrigation Rehabilitation
                                Combined:            31.7          46.8           45.2            36.8
                                           *The House Appropriations Committee has proposed $2 million.




                                               -2-
                         OBSERVATIONS AND SUGGESTIONS

Based on its 2005 PART assessment, OMB made a number of recommendations to improve
Program operations. The OMB report called on BIA to close outstanding audit deficiencies,
compile an inventory of facilities that includes their condition, and measure Program
performance. Audit follow-up actions relating to the Program cover a range of goals, such as
properly accounting for deferred maintenance, improving communication with water users, and
improving support for field personnel. We have observed some progress toward implementing
each of these goals, but much work remains. We summarize below key actions taken to date and
discuss suggestions to further strengthen Program management. See Appendix D for a complete
list of our suggestions.

FACILITIES INFORMATION
In this section, we discuss 1) operation and maintenance (O&M); 2) rights-of-way; 3)
maintenance management; and 4) deferred maintenance and provide suggestions to improve
facilities information. By acting on our suggestions, Program officials will be able to establish a
more reliable base of information on irrigation facilities and associated deferred maintenance
cost estimates.

Operation and Maintenance
BIA has data on 15 irrigation assets. These
assets each represent an irrigation project. A     Figure 1. An Irrigation Structure at the
project consists of (on average) 4,000             San Carlos Irrigation Project — Indian Works
structures and hundreds of miles of canals and
associated rights-of-way that must be
maintained. Because project officials manage
these multitudes of facilities and
corresponding components, they say
asset-level information is not useful in
determining future repair and replacement
schedules and costs.

BIA hired a contractor to develop a
geographic information system (GIS) during
the period FY1999-2003. The GIS was to be
used to inventory irrigation structures and
canals and to provide a visual assessment of
the condition of each facility. The GIS                                               OIG Staff Photo
database now functions as the IPSOD
preliminary inventory. However, field officials told us they have no means of updating the
database. As a result, it is now 4 to 8 years out-of-date. In addition, many field offices lack
computers or connectivity robust enough to work with the layers of intensive GIS data and
cannot use the system to plan O&M activities.



                                                 -3-
DOI guidance calls for completion of an annual condition assessment (ACA) and a
comprehensive condition assessment (CCA) at least every 5 years of each real property asset so
that maintenance needs and accomplishments can be documented. As noted above, field
officials interviewed told us they have no means to update ACA data.

The Program’s performance measures call for three CCAs to be completed per year, beginning in
FY2006. Program officials stated that completion of the condition assessments was dependent
upon funding, yet no project has increased assessment rates by a sufficient amount. Further,
recent budget justifications do not include any increase in Program funding to address this
requirement. At the time of our inquiry, only two assessments were complete, and no BIA
contracts were in effect to meet the FY2006 or FY2007 CCA goals.

In the absence of BIA funding, the Tribe at the Flathead Indian Irrigation Project funded one
CCA, and the U.S. Bureau of Reclamation (BOR) funded a CCA for the Crow Indian Irrigation
Project. We understand that these agencies paid between $300,000 and $500,000 — or more
than $4 per acre — to complete these detailed assessments, which included itemized analyses of
facilities repair and replacement needs.

In contrast, BOR conducts O&M reviews on each of its irrigation projects approximately once
every 5 years. For example, BOR regional and area offices staff, together with the manager of
the local water district, recently completed an O&M review for the BOR Fort Yuma Project for
approximately $20,000 in staff time.

Documentation is not as detailed as the BIA CCAs, nor does the BOR format include
independent cost estimates. However, BOR does provide a categorized list of recommended
rehabilitation and betterment 1 activities prepared by a knowledgeable team of existing
professional staff.

The three categories into which BOR places recommendations are:

        Category 1. Recommendations involving the correction of severe deficiencies
        when immediate and responsive action is required to ensure structural safety and
        operational integrity of a facility.

        Category 2. Recommendations covering a wide range of important matters when
        action is needed to prevent or reduce further damage or preclude possible
        operational failure of a facility.

        Category 3. Recommendations covering less important matters but believed to be
        sound and beneficial suggestions to improve or enhance the O&M of the project
        or facility.



1
 For our purposes, “betterment” activities refer to expansion, modernization, and more — anything done to improve
a facility beyond its original state.


                                                      -4-
This approach seems to provide a reasonable basis for project planning — without the need for a
major funding initiative.

One BIA project manager with whom we spoke indicated that he and his maintenance foreman
visually inspected the entire project at the end of each irrigation season to prioritize work for the
maintenance season. He no longer completes this inspection because so much time is consumed
satisfying administrative requirements. Automated personnel and timekeeping systems on
inadequate computing networks, unclear planning and performance reporting requirements, and a
growing list of audit follow-up activities all divert the attention of senior staff from the core
functions of operating and maintaining irrigation facilities.

We believe that BIA should not forgo timely (i.e., annual) assessments of project-level priorities
in pursuit of CCAs. Rather, it should weigh the cost, benefits, and timeliness of the current
strategy of procuring CCAs by outside engineers against alternative approaches. BIA should
consider completing O&M reviews similar to those conducted by BOR.

See Appendix E for PART questions in which the OMB examiner specifically cited the need for
an inventory of facilities conditions. BIA has the preliminary inventory in its GIS database, but
further effort to ensure timely update would be required before we would consider this inventory
reliable.

                                                                                  SUGGESTION 1
                BIA should reconsider its condition assessment strategy in order to provide a
                         timely and cost-effective means for project managers to assess and
                                             communicate current conditions and priorities.



Rights-of-Way
The ability to operate and maintain the irrigation infrastructure is, of course, dependent upon safe
access to the facilities. The need for maintenance pertains not only to structures and canals, but
to adequate rights-of-way and access roads. Physical obstruction and inadequate legal protection
of rights-of-way can impair irrigation O&M activities.

Such impairment is evident in a comparison between the settings depicted in Figure 2, where
clear access to the canal is maintained, and Figure 3, where extensive canal maintenance work
would require either removal of the residents’ fencing and landscape improvements or the use of
costly specialized equipment to ensure worker safety. Without legal enforcement, developers
have encroached on the projects’ rights-of-way. Project managers should note in their O&M
reviews any areas where encroachment affects their ability to access irrigation facilities, and BIA
should take appropriate action when it identifies such situations.

                                                                                  SUGGESTION 2
                 BIA should work closely with the Office of the Solicitor to assess BIA’s legal
                          standing in claiming rights-of-way for irrigation and enforce such
                                  rights to ensure worker safety and operational efficiency.



                                                -5-
Figure 2. A Clear Right-of-Way                                   Figure 3. An Obstructed Right-of-Way




BIA maintains a clear access road on each                        BIA maintains an access road on one side of
side of this irrigation canal.                                   this canal, but encroachment by residential
                                                                 development precludes safe access to the
                                                                 high-side embankment.
                                       OIG Staff Photo                                             OIG Staff Photo
              (Colorado River Indian Irrigation Project)                       (Fort Hall Indian Irrigation Project)




Maintenance Management
Nearly 6 years after the Assistant Secretary for Indian Affairs selected MAXIMO™ 2 as the
standard maintenance management tool, irrigation officials report many problems implementing
the system. In addition to basic work-order tracking, some MAXIMO capabilities include
scheduling jobs and resources; inventorying key equipment; estimating job costs; budgeting for
maintenance; locating structures and other irrigation system components; and identifying the
latest assessed condition of each component.

The Colorado River Indian Irrigation Project uses MAXIMO for work-orders, but officials say
the system seems designed for building management — not for linear systems such as canals and
rights-of-way. Adapting to this design requires some changes that are not useful for irrigation
projects, which caused some officials to say they have difficulty identifying specific facilities in
the new system. Officials also say that MAXIMO does not alert them when inventories are low;
rather, it alerts only when stocks are completely depleted. Consequently, at the suggestion of the
support contractor, officials use “dummy” inventory figures to get the system to work, while
manually tracking on-hand stocks. Further, Project officials say the system is not useful for
budgeting because they are unable to incorporate labor into job cost estimates. Support

2
    MAXIMO is a trademark of International Business Machines Corporation.



                                                           -6-
contractors are said to be reportedly working on improvements, but irrigation officials are
frustrated by a lack of progress.

Managers at the Colorado River Project have assigned an employee to work with MAXIMO
full-time. Also, other project managers anticipate a need to hire additional staff, which would
further stretch already insufficient operating budgets.

In contrast, the Division Chief, IPSOD, envisions maintenance staff entering their own work
tickets and updating the condition of structures or segments of canal as they complete
maintenance. He stresses that keeping MAXIMO up-to-date will ease reporting burdens and that
using the system routinely can improve project management.

                                                                                SUGGESTION 3
        Program and information technology officials should identify, analyze, and address
          the hurdles to implementing the standardized maintenance management system.
                           Causes may be information technology that is inappropriate for
                                        irrigation projects, poor contractor performance,
                                                               and/or insufficient training.



Deferred Maintenance
The Program has accumulated a significant deferred maintenance backlog. The GIS personnel
who inventoried project canals and structures received basic training for conducting preliminary
                                    condition assessments. These assessments, together with
  Without significant changes       other Program information (some that dates back to the
  to the status quo in BIA          1980s), were then used to calculate a rudimentary estimate
  irrigation projects, the          of deferred maintenance costs. IPSOD estimates the
  systems will soon become          backlog to be around $750 million. This estimate is down
  inoperable.                       from $1.2 billion in FY2004 due to efforts to validate the
                                    underlying data. Further, IPSOD officials expect to revise
           — from BIA’s Irrigation  the figure downward again in 2008 due to continued
              Handbook, May 2002
                                    refinement of data, as well as to ongoing rehabilitation.

A 2006 Government Accountability Office (GAO) audit of Indian irrigation projects questioned
the inexact nature of BIA’s deferred maintenance cost estimate for two reasons. First, neither
engineers nor irrigation personnel conducted the condition assessments. Second, project
personnel used varying definitions of deferred maintenance as they worked to validate the
original estimates.

Some field officials define deferred maintenance as completing work on time, which means that
work schedules could influence the deferred maintenance estimate more than the actual condition
of the irrigation infrastructure. Others link the concept of deferred maintenance to impaired
utility or functioning of an asset. In this view, as long as water flows to the turnouts, the



                                               -7-
irrigation project has no deferred maintenance backlog — regardless of the condition of facilities
through which the water passes.

These viewpoints illustrate the uncertainty inherent in estimating deferred maintenance. Both
positions are arguably supported by these definitions from the Indian Affairs draft “Asset
Management Plan”:

       Deferred Maintenance. Maintenance that was not             The standards recognize
       performed when it should have been or when it was          that there are many
       scheduled and which, therefore, was put off or             variables in estimating
       delayed for a future period.                               deferred maintenance
                                                                  amounts. The standards
       Deferred Maintenance Backlog. The unfunded or              acknowledge that condition
       delayed work required to bring a facility or item of       rating is a management
       equipment to a condition that meets acceptable             function since different
       codes, laws, and standards and preserves the facility      conditions might be
       or equipment so that it continues to provide               considered acceptable by
       acceptable services and achieves its expected life.        different entities as well as
                                                                  for different items . . . held
Modernization of facilities would not conventionally be           by the same entity.
included in estimates of deferred maintenance. When
working with infrastructure that is a century old, however,           — Federal Accounting Standards
                                                                         Advisory Board, Statement of
meeting “acceptable standards” necessarily entails some                 Federal Financial Accounting
degree of modernization. One project manager we visited                                 Standards #6
believes the deferred maintenance estimate for his site may
be twice what it should be because the figure includes a
great deal of activity beyond simply rehabilitating the existing infrastructure. On the other hand,
another project manager believes the figure cited for his site could easily be doubled if
betterment activities, such as lining canals or installing pipelines (acceptable standards for
efficient water transport), were to be included.

Independent auditors from the firm KPMG, in their report on BIA’s financial statements, have
also stressed a need for documenting accurate deferred maintenance costs. A facility that is in
poor condition is worth less than a facility in good condition and presents a potential liability.
We believe Program officials should continue to refine the deferred maintenance estimate by
requiring more consistency in how project-level estimates are developed. Currently, they are
storing years-old data from a contractor’s estimate of facilities condition and working toward
expensive contract efforts to examine each project more closely. At the same time, they are not
routinely updating information based on the knowledge of current staff. It seems the desire for
comprehensive, independent data on BIA’s facilities has eclipsed the need for timely
information. Regular review and update of facilities data by Program staff will provide
information useful in 1) assessing Program performance and 2) budgeting for future Program
operations.

To do so would require more oversight and focused dialogue across organizational boundaries.
The Program already has two working models that could be adapted for this purpose. The


                                                -8-
models are program review teams and a financial work group. The concepts of internal peer
review and Program-wide communication that these two models, respectively, exemplify can be
applied to 1) improving the deferred maintenance estimates at each project; 2) better
documenting definitions and policies appropriate to the irrigation function and facilities; and
3) developing training for project managers and staff on the application of these policies in the
future.
                                                                                    SUGGESTION 4
      Program officials should establish a deferred maintenance working group of regional
        irrigation engineers, project officials, and representatives of IPSOD and the Office
                   of the Deputy Assistant Secretary for Management to develop consistent
                           policies for deferred maintenance estimation and accounting and
                             to review the deferred maintenance estimates for each project.



PERFORMANCE MEASURES
Updating information on the condition of irrigation facilities is critical to satisfying OMB’s
requirements for measuring program performance, as well as to improving the reliability of BIA
financial statements. BIA received NO responses to 10 PART questions (specified in Appendix
E) due to the need for meaningful performance measures and ambitious targets. A lack of


                  Table 2. BIA Irrigation PART Performance Measures
   Term           Type                              Performance Measure
                              Improve the condition of the irrigation projects by eliminating
Long-Term       Outcome       the deferred maintenance backlog by 20XX [target year was
                              never determined; measure now proposed for deletion]
                              Complete inventory and preliminary assessment of 100% of
  Annual         Output
                              Irrigation Projects [proposed for deletion]
                              Percent of revenue generating irrigation projects for which
  Annual         Output       comprehensive condition assessments have been completed
                              annually
                              Percentage of maintenance projects that are completed within
  Annual        Efficiency
                              established timeframes
                              Percentage of irrigation projects that have been reviewed during
Long-Term       Outcome       the reporting year and found to be in compliance with
                              regulations
                              Percent of irrigation projects with identified noncompliance
  Annual        Outcome
                              issues for which corrective action plans have been established
                                 Note: The language in the last four measures reflects recent amendments
                                                   based on measurement rather than goal terminology.



                                                -9-
reliable performance information ultimately triggered the Results Not Demonstrated
designation. BIA responded to OMB’s criticisms by establishing the measures we present in
Table 2.
Program officials have since proposed deleting the first long-term outcome measure regarding
the deferred maintenance backlog. They reason that the supporting annual measures must be
complete before appropriate targets can be set and that resources may be inadequate to
accomplish the goal. However, a key idea underlying the PART process is the improvement of
budget and performance integration. To delete the Program’s most outcome-oriented
performance measure due to a lack of resources counters the very premise on which the PART is
based. Some measure(s) of facilities condition should remain in place so long as BIA retains
title to and responsibility for the irrigation infrastructure.
OMB and BIA have agreed to delete the first annual measure regarding completion of a
preliminary assessment. They deem this action completed based on the GIS inventory discussed
on page 3. Replacing the first two measures with long-term measures for the percent of
1) irrigation structures in acceptable condition and of 2) irrigation canals in acceptable condition
results in estimated baselines of 65 percent and 84 percent, respectively. Although IPSOD
acknowledges shortcomings in these baseline figures from the GIS inventory, future performance
information should become more reliable as Program officials update facilities information.
The current efficiency measure relates to the timely completion of maintenance. At existing
funding levels, the Program’s performance target for timely completion of maintenance tasks is
only 45 percent, and managers deem completion of 50 percent “commendable.” With this level
of performance, the deferred maintenance backlog will, logically, grow rapidly. However,
officials admit that this process measure is exceptionally easy to manipulate because the
performers set the schedules against which timeliness is assessed. To provide assurance that
project-level performance can be meaningfully assessed, IPSOD should provide guidance on
how to set appropriate maintenance schedules and validate a sampling of scheduled tasks during
program reviews.
The second long-term outcome measure regarding compliance with regulations was originally a
cumulative measure that would increase to 100 percent over time. The Program’s proposal to
add the qualifying phrase “. . . during the reporting year . . .” seems to make this an annual
measure. BIA could strengthen the supporting measure regarding establishment of corrective
action plans by measuring the completion of corrective actions rather than establishment of
plans. Developing plans in a timely manner may be an appropriate standard for appraising the
performance of individual managers. However, it is not an effective indicator of Program
performance for PART purposes.

                                                                                 SUGGESTION 5
      BIA should strengthen its performance measures by 1) setting goals for the long-term
         improvement of facilities condition; 2) revising the annual compliance measure to
                     assess the completion of corrective actions; and 3) providing guidance
                                         on how to set appropriate maintenance schedules.




                                               - 10 -
BIA’s irrigation mission is to deliver available water equitably and in a timely manner. Being
able to directly measure mission performance requires expensive water measurement equipment.
BIA currently measures water delivery with technology ranging from virtually nonexistent to
nearly state-of-the-art. One project official told us of discrepancies between federal and State
water measurements that could affect water rights administration. Were this situation to
improve, the Program would be able to more reliably measure water delivery and could report
efficiency in terms of the loss of water between the source and the user.

                                                                                  SUGGESTION 6
            DOI should invest in improvements that will enable irrigation project officials to
                        more reliably measure water delivery and water delivery efficiency.



ASSESSMENT RATES AND BUDGETS
                                    We made a simple comparison of key statistics between
 Historically, BIA tempered         IPSOD and another irrigation-and-power program. The
 irrigation rate increases          Imperial Irrigation District (IID) in California is said to be
 based in part on the               the Nation’s largest irrigation system. Collectively, BIA’s
 economic impact on water           irrigation projects manage more miles of canal and serve
 users. This tempering of           greater acreage than IID — with only one-fourth the
 rate increases has resulted        operating budget.
 in a rate deficiency at most
 of the irrigation projects.        In proposing assessment rates for each irrigation project,
                                    Program officials use the Financial Program Planning System
             — from BIA Notice of   (FPP) to capture the expected cost of annual O&M activities.
            Rate Adjustments in the
      Federal Register, 72FR19950,  They divide projected costs by the number of assessable
                         April 2007 acres in a given project (or within part of a project) to derive
                                    the base rate per acre. Program-wide, this comes to an
average of around $56 per acre served, of which approximately $35 comes from the users.

Once Program officials have calculated the base assessment rate for O&M, FPP allows them to
add 1/40th of the estimated deferred maintenance backlog to try to make the rates reflect full cost.
Project officials may or may not take this addition into consideration. To cover the deferred
maintenance portion of the full cost formula, BIA would have to raise rates by an average, based
on current figures, of $26 per acre (74 percent). Many officials believe users cannot afford such
an increase.

When setting rates, BIA publishes its proposal and solicits public comments in the “Federal
Register.” Bureau officials meet with interested water users (and water user associations, where
established) to discuss the proposed budget. After considering user feedback and any public
comments, BIA makes a final decision and publishes the new rate. In some cases, marginal
increases do take effect. In other cases, rates have remained fixed for years or even decades,
while millions of dollars in maintenance needs have accumulated.




                                               - 11 -
The United Nations Food and Agriculture Organization (FAO) reports that, in irrigation projects
around the world, “the conventional approach to rehabilitation has been to wait until
deterioration has become severe over a wide enough area that a large rehabilitation project is
needed.” This approach often leads to an inefficient cycling of deterioration and rehabilitation.
Minor repairs left unattended may lead to the need for major rehabilitation efforts. Consider the
BIA facility shown in Figure 4. Officials tell us that problems first arose in the 1960s.


 Figure 4. Thousands of Acres at Risk at the Fort Hall Indian Irrigation Project


                                             The maintenance supervisor calls the office to
                                             report water along the roadside — a sign that an
                                             underground siphon is leaking, despite $60,000 in
                                             recent repairs. The Project does have a substantial
                                             amount of money on account for major repairs, but
                                             officials fear a full replacement will exceed their
                                             means.
                                                                                   OIG Staff Photo

            Water flows into a runoff trench along the
     roadside — a precious resource lost. Beyond the
  siphon’s discharge, more than 10,000 acres are still
   receiving irrigation water. This acreage would run
                         dry if the siphon were to fail.



                                         OIG Staff Photo


As an alternative, the FAO promotes a strategy of “incremental infrastructure improvement.”
We have adapted this strategy for BIA consideration (see below).

   •   Program officials —

       o integrate maintenance, rehabilitation, and betterment costs into the same
         overall financial planning process;

       o may provide incentives based on cost-sharing that are designed to stimulate
         preventive maintenance and modernization; and

       o use independent financial audits and technical evaluations periodically to
         strengthen project management.




                                                - 12 -
   •   Project officials —
       o identify, with technical assistance from Program engineers, needed repairs and
         improvements;
       o work with water users to prioritize needs; and
       o raise sinking funds — money set aside for specific purposes — from water
         users via a surcharge on irrigation fees.

Based on data collected in 2002 and 2003, U.S. Department of Agriculture (USDA) national
statistics reflect an average irrigation charge of $42 per acre. Even before adjusting for inflation,
this average is 20 percent more than BIA charges today. Although full cost recovery would
resolve the Program’s funding woes, an immediate rate increase to fully reimburse the projects
would be an unreasonable expectation. We suggest Program officials approach budgeting
proactively by managing project funds more systematically. Instead of assessing an arbitrary
fraction of an outsized deferred maintenance estimate or waiting several years for condition
assessment data, each project manager should work with water users to identify the highest
priority needs based upon available data and personal knowledge.

Planning for rehabilitation projects may or may not result in the same cost figures as deferred
maintenance accounting. Generally, such accounting assumes that repair or replacement of the
facility will address identified physical deficiencies. In reality, project managers will work to
remedy functional deficiencies. Such remedies may also come through modifying operations,
improving technology, reassessing functional requirements, or redesigning to meet requirements
through a different set of facilities. It is, therefore, important that managers base fiscal planning
on each project’s plans for operating, maintaining, rehabilitating, and improving the irrigation
infrastructure rather than on the deferred maintenance estimate.

Beyond basic charges for labor and supplies, the annual costs used in setting irrigation rates may
include the maintenance of reserve and sinking funds. A reserve fund is a reasonable balance
maintained for emergency repairs or other contingencies and a sinking fund is money set aside
for purposes such as life-cycle replacement of major equipment or anticipated infrastructure
rehabilitation projects. Proper use of these funds is critical to the long-term sustainability of the
irrigation projects.

To manage sinking funds, project managers should use identified needs and the best available
estimates of associated costs to develop project-level plans to rehabilitate and better the irrigation
infrastructure over the long-term. They should also develop long-term plans that document
1) the amount of funds required to complete the work, 2) how much money users provide
annually, and 3) the length of time needed to save the necessary amount. To the extent possible,
regional irrigation engineers should validate project priorities during on-site visits.

                                                                                   SUGGESTION 7
                  BIA should systematically prepare project-level plans for the use of sinking
                            funds to meet maintenance, repair, and improvement priorities.




                                                - 13 -
In addition, project managers should discuss their sinking fund management plans at water user
meetings. This communication will foster understanding of what the assessments will fund over
the coming year and of the long-term risks of not collecting sufficient monies. Following GAO’s
2006 audit report, the Director of BIA issued a policy memorandum to regional directors
requiring each irrigation project manager to hold a minimum of two water user meetings each
year. The BIA “Irrigation Handbook” already included a similar recommendation, but the policy
memorandum makes the meeting provision mandatory. Regional irrigation engineers are
required to participate in one such meeting at each project in their region, and program reviews
address each project’s compliance with the user meeting requirement.

Attendance at water user meetings varies. One project manager reported that the last meeting
convened with seven BIA staff — and only five water users out of the thousands served.
Nevertheless, we believe BIA should continue to enforce the new policy to improve
communication with stakeholders and enhance understanding of BIA proposals.

We also suggest the Program include more information in public notices about each project’s
maintenance needs. Currently, BIA publishes existing and proposed rates for each project. The
reader has no insight into unmet needs beyond a general acknowledgement of a “rate
deficiency.” Instead, the notice indicates that information is available at each project office.
Unless the reader actively seeks details, he or she learns only that BIA wants to charge water
users more and does not understand that a proposed increase of $2 or $3 per acre is
comparatively little when considering an estimated deferred maintenance backlog of $1,000 per
acre.

                                                                                   Suggestion 8
                         BIA should, when proposing rate adjustments, publish a description
                                 and an estimate of the maintenance needs for each project.



The FY2006 earmarks that restricted funding to five projects in Montana and Wyoming were
contained in the Senate Appropriations Committee report and not in the enacted appropriation.
As a result, the restrictions do not have the force of law and did not carry over into the omnibus
continuing resolution for FY2007.

In addition to user assessments and direct Congressional investment, there are other means
available to address the needs of irrigation projects. For example, the State of Wyoming has
reportedly committed to matching the $3.5 million slated for rehabilitation work at the Wind
River Indian Irrigation Project. Also, BOR has announced more than $200,000 in “Water 2025”
grant funding for improvements at the Uintah Indian Irrigation Project (featured on the cover of
this report). Other projects should pursue these and other alternative sources of funding to the
maximum practical extent.

Even though the earmark restrictions did not carry over to FY2007, DOI officials decided to fund
the same five projects funded in FY2006. They explained that their intent was to capitalize on
the previous assessment and prioritization efforts, and that limiting the work to one region would


                                               - 14 -
improve efficiency. Even allowing for the contribution from the State of Wyoming, it is unclear
to us whether officials allocated construction funds to the Program’s most pressing needs. For
example, rehabilitation of Tyhee Siphon, which is featured in Figure 4, is clearly important to the
Fort Hall Project. We know this without benefit of assessment and prioritization of the Project’s
3,000 other structures. IPSOD could have compared Tyhee Siphon’s need for rehabilitation to
the top ranked needs of other projects instead of restricting the funds to the five projects already
receiving money. To leverage the Program’s limited discretionary funds, IPSOD could consider
allocating rehabilitation funding based on an internal competition among projects, with
investments requiring a matching commitment of project sinking funds.

                                                                                  SUGGESTION 9
         IPSOD should consider priority needs from all projects in allocating rehabilitation
                              funding, in addition to seeking other funding opportunities.



DOI’s budget justification for the Program reflects a
long-term goal of reducing deferred maintenance, yet does        Subsidies to the irrigation
not request sufficient funding to meet even current              sub-sector may be justified
maintenance needs. DOI has not communicated                      when capital-intensive
information about deteriorating facilities, the need for         irrigation development is
rehabilitation, or the risks associated with continued           required to meet national
degradation to the Appropriations Committees. Thus, the          policy objectives.
Program neither charges its users the full cost of                      — United Nations Food and
maintaining and rehabilitating irrigation projects, nor                   Agriculture Organization
informs the Congress of the anticipated shortfall.

The desired benefits of investment in the Program are agricultural productivity and sustainable
economic return for Indian communities. We believe Program officials are responsible for
informing the Congress of the state of authorized irrigation facilities. DOI should request a level
of funding appropriate to the Program’s contribution to agricultural productivity and economic
development — issues of national importance.

                                                                                SUGGESTION 10
             DOI should better inform the Congress of irrigation project needs and benefits.



BILLING AND COLLECTION
We did not audit the Program’s billing records and procedures, but we did discuss billing
practices in general with project staff. Program officials have implemented a form of internal
peer review that teams use to evaluate each project for compliance with regulations, policy, and
procedures. The teams consist of IPSOD and regional personnel and peers from another project
or regional office. Project officials are aware of auditor concerns about the lack of segregation
of billing and collection duties, and they rely on supervisory review, program review, and audits
of the Bureau’s annual financial statements to provide assurance of adequate control.


                                               - 15 -
Water user assessments should be set to cover a project’s
                                                                  After a period of rapid
administrative expenses, as well as to fund general O&M
                                                                  expansion of irrigated area
activities. Such costs can be compounded when tracts are
                                                                  worldwide from the 1950s to
split. For example, a 40-acre agricultural tract could be
                                                                  the early 1980s, many
subdivided into 160 residential lots. In that case, BIA
                                                                  governments found it
would need to track ownership status for 160 accounts
                                                                  difficult to finance the
instead of 1 even though the irrigation system operator
                                                                  recurring costs of irrigation
would still deliver water to a single turnout. At $35 per
                                                                  or to collect water charges
acre, BIA would have previously issued a $1,400 collection
                                                                  from farmers.
notice to a single farmer. With the tract developed for
housing, BIA would need to issue 160 bills for $8.75 each.               — United Nations Food and
                                                                           Agriculture Organization
Project managers currently address administrative costs
using the three methods described below.

       Minimum Charge. Using this method, project officials would establish a fixed dollar
       amount as the minimum charge per account. In our example above, they would issue to
       each water user a collection notice for the greater of the calculated assessments ($8.75) or
       for a previously established minimum charge.

       A number of BIA project officials levy a minimum charge, which ranges from $14 to
       $65. If these charges are too low, officials risk collecting less than the cost of servicing a
       given account. Conversely, if the charges are too high, users on small lots will pay a
       disproportionate share.

       Minimum Bill. Using this method, project officials would identify a minimum
       assessment amount and withhold collection notices for anything below it. They would
       then accumulate these small charges into a year-end request for debt cancellation. At
       year’s end, officials would “write off” these charges as not worth pursuing.

       Officials of at least one BIA project reported using this approach in a quest for
       administrative efficiency. Consequently, small-lot (mostly residential lawn and garden)
       users receive free service, and others have to bear the price of the resultant deficit in
       terms of either higher assessments or unfunded maintenance needs.

       Billing Charge. Using this third method, officials would estimate administrative costs
       separately from general O&M costs and levy fees accordingly.

       For example, BIA provides billing services for the BOR Fort Yuma Indian Irrigation
       Project. It covers the administrative costs by adding $7 per acre to BOR’s O&M
       assessments. BIA could apply the same approach for the projects it operates, and the
       administrative cost would attach equally to each water user.

                                                                                 SUGGESTION 11
                    BIA should institute a consistent billing approach to include distribution
                             of administrative costs fairly to each account. Officials should
                                   cancel debts only after appropriate collection efforts fail.



                                               - 16 -
Project officials expressed concern about shortcomings in the Program’s data management. BIA
uses the National Irrigation Information Management System (NIIMS) for billing and collections
tracking. However, some field officials say they find NIIMS data unreliable. Therefore, they
maintain hard-copy records and perform rate and account balance calculations offline, as they
have in the past. In some cases, they say, the system calculates different rates for users with the
same acreage and account characteristics. Corrections must be made manually and often require
working through support contractors who insist that the system is correct, even though they
cannot explain why balance-due figures are inconsistent. A 2006 Program review suggested that
outdated procedures in manual processing led to the apparent discrepancies between the local
records and NIIMS data but provided no explanation for variances between individual records
within NIIMS.
Further, NIIMS does not meet all of the Program’s billing data management needs. The
Colorado River Indian Irrigation Project uses NIIMS to track assessments for its basic allotment
of 5.75 acre-feet of water per acre. However, project officials also allow users to purchase water
above this level for an additional fee that is based on the volume of “excess” water requested.
Officials tell us that NIIMS is unable to track and bill for this activity, so they maintain
Microsoft Excel spreadsheets locally to account for excess water transactions.

                                                                                  SUGGESTION 12
 IPSOD and support contractors should work with project officials to investigate perceived
    discrepancies in NIIMS data and, if necessary, correct the business rules and the data.
               They should also consider enhancing or replacing NIIMS to accommodate
                             various rate structures and to ensure a complete accounting
                                                             of billing and collection data.


                                          With increasing demand for water, efficient use of this
  Chronic water shortages,                limited resource becomes more important. BIA
  explosive population growth,            coordinates technical and financial assistance with other
  over-allocated watersheds,              agencies to enable farmers to implement conservation
  environmental needs, and                practices but could do more. For example, BIA could
  aging water facilities are              further promote conservation by redesigning its rate
  combining to create the                 structure for irrigation. A move toward greater use of
  potential for crisis and                volumetric pricing, as opposed to area pricing, would
                                          lower total cost for those who use water more efficiently.
  conflict over water.
                                          Volumetric pricing is charging based on the amount of
                — Dirk Kempthorne,        water used, and area pricing is charging based on the
              Secretary of the Interior   number of acres irrigated.

                                    Fair execution of volumetric pricing would require reliable
water measurement, as we discuss on page 10. Implementing this change would require full
consultation with affected tribes.

                                                                                  SUGGESTION 13
                      BIA should consult with tribes and water users to restructure irrigation
                                          assessments to better promote water conservation.


                                                 - 17 -
FIELD OPERATIONS SUPPORT
In its 2006 audit report, GAO commented that “. . . officials with the authority to oversee project
managers’ decisionmaking lack the technical expertise needed to do so effectively, while the
staff who do have the expertise lack the necessary authority.” This observation stems from the
Bureau’s organizational structure. As a central program office, IPSOD falls under the BIA
Deputy Director for Trust Services, while the irrigation project managers report to the regional
directors, who fall under the BIA Deputy Director for Field Operations. In most cases, the
irrigation project managers report through their respective agency superintendents. Regional
directors do employ regional irrigation engineers to provide functional oversight and technical
expertise to projects within their geographic areas, but these engineers do not have line authority
over the project managers.

The BIA Director issued a policy memorandum to address this issue without reorganizing the
Bureau. The policy supplements an existing Indian Affairs Manual chapter to clarify the roles of
IPSOD, the regional irrigation engineers, and the irrigation project managers. Under the policy,
IPSOD establishes technical standards and conducts periodic reviews of irrigation operations.
Project managers prepare an annual work program that outlines rehabilitation activities for the
upcoming year. Regional irrigation engineers exercise approval authority over these plans. We
asked Program officials whether contracting officers had been informed that rehabilitation
activities require prior approval beyond the project manager. They had not, but IPSOD agreed to
coordinate such notification through the office of the Deputy Assistant Secretary for
Management (DASM).

Field officials with whom we spoke indicated that the level of expertise and working styles of
incumbents are what matters, rather than formal lines of authority within the Irrigation Program.
When competent professionals collaborate, either model — functional alignment or geographic
alignment— can work.

Discussion of organizational matters outside the Irrigation Program elicited stronger reactions.
Beyond technical irrigation and engineering support, projects require IT, human resource, and
procurement support. Field officials say that information technology capabilities were lost and
service declined after Indian Affairs reorganized and shifted responsibilities between the Denver
and Albuquerque support centers. We encountered differing opinions on whether procurement
support had improved or declined since DOI centralized the
contracting function for all Indian Affairs activities under     Since the mid 1980s there
DASM. Opinions seemed to depend on how well the                  has been an upsurge in
assigned contracting officers understand irrigation projects’    efforts by governments
needs and the local market for services.                         around the world to transfer
                                                                 management for irrigation
The Uintah Indian Irrigation Project is able to bypass many      systems from government
of these concerns. As authorized by the Congress in 1992,        agencies to farmer
the water user association there operates and maintains the      organizations or other
project’s 6,000 structures and 600 miles of canals and           non-governmental entities.
ditches. From a high of about 20, only 4 BIA personnel                 — United Nations Food and
remain to oversee the cooperative agreement.                               Agriculture Organization




                                               - 18 -
Responsibility for day-to-day operations now falls to the association and its contractors, who
have considerable flexibility to deal with project requirements in a timely manner. BIA staff
provide technical assistance and guidance to the association and monitor performance under
annual agreements.

Not every community has users willing and able to effectively run project operations. Indeed,
BIA transferred operations at the Uintah Project over a 5-year period, as the association board
learned its responsibilities and assumed more of the duties. Still, the association design ensures
that both Indian and non-Indian water users are represented and that the elected board members
play an active, central role in managing the project for the benefit of all users. Three other
projects (Flathead, San Carlos Joint Works, and San Carlos Indian Works) are in the process of
turning over operations to user groups, and legislation is pending in the Senate to direct turnover
at a fourth (Duck Valley). BIA plans to assess the feasibility of transferring management of
other projects to water user groups. In the meantime, we suggest Program officials 1) examine
the expectations and perceptions of project managers regarding the quality and timeliness of
procurement support and 2) work with DASM to better satisfy project requirements.

                                                                                SUGGESTION 14
                         IPSOD should work with DASM to assess and address shortcomings
                                           in procurement support for irrigation projects.


At the Colorado River Irrigation Project, officials have opened their books to the Tribe, and
some members of the Tribe's Irrigation Committee participate in the budget process. Because of
this open environment, good rapport exists between the Tribe and Project officials. When the
assessment rate is increased, problems do not develop because the users have been part of the
rate-setting process and understand the need for the increase.

While the Colorado River Project is reputed to be BIA's "best managed," no formal mechanism
for sharing best practices with other projects seems to exist. Existing information-sharing
opportunities presented by Program-wide rate-setting/FPP conferences and use of
cross-organizational program review teams and the Financial Working Group are valuable. They
may, however, be too task-focused to facilitate communication of a broader range of ideas. A
periodic newsletter, best practices forum, or other mechanism for exchanging information could
be helpful in replicating best practices from project to project.

                                                                                  Suggestion 15
                         BIA should devise a means of sharing best practices among projects.


Many federal irrigation projects on Indian reservations lacked feasibility studies prior to their
initial construction. Had such studies been available, decision-makers of the day would likely
have had to declare some of the projects infeasible. In response to a recommendation from
GAO, BIA is working on a contracting action to conduct financial sustainability studies. The
draft requirements document addresses the key factors underlying project sustainability. It also
addresses the need to 1) estimate the cost of betterment alternatives, such as modernization of


                                               - 19 -
facilities or modification of the service area and 2) assess stakeholder opinions on possible O&M
turnover to water user associations.

These studies should provide valuable information as project managers plan for future
rehabilitation and modernization investments. At the time of our inquiry, however, the
contracting effort was behind schedule. In fact, it was unfunded. Further, much of the work
cannot be undertaken until condition assessments are completed. As we discussed previously,
CCAs are also behind schedule. However, the more focused approach we discuss under
“Facilities Information” may provide a sufficient basis to examine alternatives broadly.

The Program would benefit from a master schedule that lays out when condition assessments,
program reviews, maintenance system implementation, and sustainability studies are scheduled
to take place at each project. The schedule duration would depend on available resources.
Currently, it seems as though every project manager can expect a program review on a regular
basis. However, we were not provided a schedule for deployment of the maintenance
management system. Whether — let alone when —expertise will be available to complete the
condition assessments and sustainability studies remains an open question.

                                                                              SUGGESTION 16
                                IPSOD should develop an integrated schedule of key actions.




                                             - 20 -
                   APPENDIX A: History and Use of the PART


Planning and performance In 1993, the Congress found federal managers to be
           monitoring are “disadvantaged in their efforts to improve program efficiency
          required by law and effectiveness, because of insufficient articulation of
                          program goals and inadequate information on program
                          performance.” The Government Performance and Results Act
                          (Public Law 103-62), or GPRA, was passed to promote a focus
                          on results by requiring federal agencies to engage in strategic
                          planning and performance reporting.

  Objectives and results of   The “President’s Management Agenda,” which includes a U.S.
     federal programs are     Government-wide initiative to improve budget and performance
   assessed during budget     integration, was published in 2001. The Agenda calls for
              formulation     agencies to monitor program performance and to incorporate
                              performance review into budgetary decision-making.

                              To support this initiative, the Office of Management and Budget
                              (OMB) instituted a new activity within the context of budget
                              formulation. OMB uses a standard questionnaire called the
                              Program Assessment Rating Tool (PART) to engage federal
                              programs in a review of program design, strategic planning,
                              program management, and the achievement of results that
                              demonstrate value for the taxpayer. Through the PART process,
                              OMB rates programs as Effective, Moderately Effective,
                              Adequate, or Ineffective. Alternatively, OMB deems programs
                              that are unable to provide reliable performance information
                              (thus precluding assignment of a program rating) Results Not
                              Demonstrated and recommends establishment or improvement
                              of mechanisms for performance measurement.

OMB has found that many Of the 72 DOI programs assessed between 2002 and 2007,
       DOI programs lack OMB rated only eight programs (11 percent) Effective and
 performance information placed 16 programs (22 percent) in the category Results Not
                         Demonstrated. DOI programs assessed through the PART
                         process reflect over $9 billion dollars in annual budget
                         authority. Approximately one quarter of this spending is
                         associated with programs that lack reliable performance
                         information.




                                            A-1
    PART Ratings for DOI            Number of     Percent of
      Programs, 2002-2007           Programs      Programs
 Effective                               8            11
 Moderately Effective                   23            33
 Adequate                               25            34
 Ineffective                             0             0
      Results Not Demonstrated          16            22
                      TOTAL             72           100

PART findings can be used to 1) justify termination or
substantial curtailment of federal programs, 2) support
legislative or fiscal enhancements, or 3) promote management
improvements. OMB publishes PART results on its
ExpectMore.gov Web site, together with recommended
improvement actions for every program it has assessed. Agency
officials and program managers are expected to follow up on
these recommendations and to keep OMB, and ultimately the
public, apprised of progress through updates of the information
posted to ExpectMore.gov and through internal
communications. OMB then reassesses programs on schedules
developed in consultation with responsible agencies.




              A-2
                       APPENDIX B:
               Sites Visited or Contacted

                 Irrigation Project Sites
         Colorado River Indian Irrigation Project,
        Colorado River Indian Reservation (Arizona)

             Fort Hall Indian Irrigation Project,
        Shoshone-Bannock Indian Reservation (Idaho)

               U.S. Bureau of Reclamation
           Fort Yuma Indian Irrigation Project,
 Fort Yuma Quechan Indian Reservation (Arizona/California)

San Carlos Indian Irrigation Project — Joint Works (Coolidge),
           Gila River Indian Reservation (Arizona)

 San Carlos Indian Irrigation Project — Indian Works (Pima),
          Gila River Indian Reservation (Arizona)

               Uintah Indian Irrigation Project,
         Uintah and Ouray Indian Reservation (Utah)

                      Other Offices
                   Bureau of Indian Affairs
      Division of Irrigation, Power, and Safety of Dams
                       Washington, DC

                   Bureau of Indian Affairs
      Division of Irrigation, Power, and Safety of Dams
                       Phoenix, Arizona

                   Bureau of Indian Affairs
                     Northwest Region
                      Portland, Oregon

                   Bureau of Indian Affairs
                      Western Region
                      Phoenix, Arizona



                              B
                                APPENDIX C:
            Index of OMB Improvement Plan Actions by Report Section
                  Prior Audit Recommendation                                   Section in this Report
                 OMB Recommendation #1: Address and Correct . . . Audit Deficiencies.

OIG Recommendation 1996-2: Develop project budgets and                   Assessment Rates and Budgets
assessment rates based on accurate estimates of the full costs of
properly operating, maintaining, rehabilitating, and replacing the
projects’ facilities and equipment.

OIG Recommendation 1996-4: Ensure that project offices comply            Billing and Collections
with Departmental billing requirements.

GAO Recommendation 2006-1: Provide the necessary level of                Support for Field Operations
technical support to project managers.

GAO Recommendation 2006-2: Require project managers to meet at           Assessment Rates and Budgets
least twice annually with water users.

GAO Recommendation 2006-3: Conduct studies to determine the              Support for Field Operations
financial sustainability of the projects.

KPMG Recommendation 2007-1: Develop lines of authority to ensure         Support for Field Operations
that deferred maintenance estimates are submitted to proper personnel
on a timely basis and that adequate … support is provided to personnel
in the field developing the estimates.

KPMG Recommendation 2007-2: Implement a management                       Facilities Information
information system to track the deferred maintenance estimates
associated with [irrigation facilities] to ensure those estimates are
accurate.


OMB Recommendation #2: Compile an Inventory of [Facilities Condition] on . . . Authorized
Irrigation Projects.

OIG Recommendation 1996-1: Develop comprehensive and accurate
                                                                         Facilities Information
inventories of project facilities and equipment for all projects with
operation and maintenance rates. The inventories should include the
location, age, physical condition, and estimated remaining useful life
for each facility and piece of equipment.

OMB Recommendation #3: Develop meaningful performance measures to guide informed
management and budgetary decisions, such as [facilities condition] and funding needs.


[ N/A ]                                                                  Performance Measures




                                                           C
                          APPENDIX D: Table of Suggestions
Number                                       Suggestion                                            Page

                                     Facilities Information

         BIA should reconsider its condition assessment strategy in order to provide a timely
  1      and cost-effective means for project managers to assess and communicate current            5
         conditions and priorities.

         BIA should work closely with the Office of the Solicitor to assess BIA’s legal
  2      standing in claiming rights-of-way for irrigation and enforce such rights to ensure        5
         worker safety and operational efficiency.

         Program and information technology officials should identify, analyze, and address
         the hurdles in implementing the standardized maintenance management system.
  3                                                                                                 7
         Causes may be information technology that is inappropriate for irrigation projects,
         poor contractor performance, and/or insufficient training.

         Program officials should establish a deferred maintenance working group of regional
         irrigation engineers, project officials, and representatives of IPSOD and the Office of
  4      the Deputy Assistant Secretary for Management to document consistent policies for          9
         deferred maintenance estimation and accounting and to review the deferred
         maintenance estimates for each project.

                                     Performance Measures

         BIA should strengthen its performance measures by 1) setting goals for the long-term
         improvement of facilities condition; 2) revising the annual compliance measure to
  5                                                                                                 10
         assess the completion of corrective actions; and 3) providing guidance on how to set
         appropriate maintenance schedules.

         DOI should invest in improvements that will enable irrigation project officials to
  6      more reliably measure water delivery and water delivery efficiency.                        11


                                Assessment Rates and Budgets

         BIA should systematically prepare project-level plans for the use of sinking funds to
  7                                                                                                 13
         meet maintenance, repair, and improvement priorities.

         BIA should, when proposing rate adjustments, publish a description and an estimate
  8                                                                                                 14
         of the maintenance needs for each project.

         IPSOD should consider priority needs from all projects in allocating rehabilitation
  9                                                                                                 15
         funding, in addition to seeking other funding opportunities.

  10     DOI should better inform the Congress of irrigation project needs and benefits.            15




                                                 D-1
                                  Billing and Collection

     BIA should institute a consistent billing approach to distribution of administrative
11   costs fairly to each account. Officials should cancel debts only after appropriate     16
     collection efforts fail.

     IPSOD and support contractors should work with project officials to investigate
     perceived discrepancies in NIIMS data and, if necessary, correct the business rules
12   and the data. They should also consider enhancing or replacing NIIMS to                17
     accommodate various rate structures and to ensure a complete accounting of billing
     and collection data.

     BIA should consult with tribes and water users to restructure irrigation assessments
13                                                                                          17
     to better promote water conservation.

                               Field Operations Support

     IPSOD should work with DASM to assess and address shortcomings in procurement
14                                                                                          19
     support for irrigation projects.

15   BIA should devise a means of sharing best practices among projects.                    19

16   IPSOD should develop an integrated schedule of key actions.                            20




                                             D-2
            APPENDIX E: PART Questions that Elicited a NO Answer

                          Inventory of Facilities Condition
PART Question 2.2. Does the program have ambitious targets and timeframes for its
long-term measures?

PART Question 2.3. Does the program have a limited number of specific annual
performance measures that can demonstrate progress toward achieving the program’s
long-term goals?

PART Question 2.4. Does the program have baselines and ambitious targets for its
annual measures?

PART Question 4.2. Does the program (including program partners) achieve its
annual performance goals?

                           Performance Information
PART Question 2.1. Does the program have a limited number of specific long-term
performance measures that focus on outcomes and meaningfully reflect the purpose of
the program?

PART Question 2.2. Does the program have ambitious targets and timeframes for its
long-term measures?

PART Question 2.3. Does the program have a limited number of specific annual
performance measures that can demonstrate progress toward achieving the program’s
long-term goals?

PART Question 2.4. Does the program have baselines and ambitious targets for its
annual measures?

PART Question 2.5. Do all partners (including grantees, sub-grantees, contractors,
cost-sharing partners, and other government partners) commit to and work toward the
annual and/or long-term goals of the program?

PART Question 2.7. Are budget requests explicitly tied to accomplishment of the
annual and long-term performance goals, and are the resource needs presented in a
complete and transparent manner in the program’s budget?

PART Question 3.1. Does the agency regularly collect timely and credible
performance information, including information from key program partners, and use it
to manage the program and improve performance?




                                            E-1
PART Question 3.2. Are federal managers and program partners … held accountable
for cost, schedule and performance results?

PART Question 3.4. Does the program have procedures (e.g., competitive
sourcing/cost comparisons, IT improvements, appropriate incentives) to measure and
achieve efficiencies and cost effectiveness in program execution?

PART Question 4.1. Has the program demonstrated adequate progress in achieving its
long-term performance goals?

PART Question 4.2. Does the program (including program partners) achieve its
annual performance goals?

                               Audit Deficiencies
PART Question 1.4. Is the program design free of major flaws that would limit the
program’s effectiveness or efficiency?

PART Question 2.6. Are independent evaluations of sufficient scope and quality
conducted on a regular basis or as needed to support program improvements and
evaluate effectiveness and relevance to the problem, interest, or need?




                                            E-2
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
